  ADEQUACY OF QUALITY ASSURANCE 

OVERSIGHT OF THE LOAN MANAGEMENT 

  AND ACCOUNTING SYSTEM PROJECT 




            Report Number: 10-14 

        Date Issued: September 13,2010 





                  Prepared by the 

            Office of Inspector General 

       U. S. Small Business Administration 

             u.s. Small Business Administration
             Office Inspector General                               Memorandum
     To: 	   David B. Robbins                                                                 Date:    September 13, 2010
             Director, LMAS Modernization Program

             Paul T. Christy 

             Acting Chief Information Officer 

             lsi Original Signed 

  From: 	    Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   Report on the Adequacy of Quality Assurance Oversight of the Loan Management and
             Accounting System Project
             Report No. 10-14

             This report presents the results of our audit of the Small Business Administration's
             (SBA) Quality Assurance (QA) Oversight of the Loan Management and
             Accounting System (LMAS) Project. To guide QA activities, SBA developed a
             QA Plan identifying steps that it will take to evaluate overall performance of the
             LMAS project on a regular basis to ensure that it conforms to the Agency's quality
             standards and satisfies user needs. A major component of a QA plan is the
             Independent Verification and Validation (IV& V) of development products to
             ensure that design specifications are correctly implemented and that deliverables
             accomplish their intended purpose. SBA contracted with TestPros to develop and
             implement the QA plan, including conducting all IV& V activities.

             The objectives of the audit were to determine the: (1) adequacy of SBA's QA
             Plan; (2) extent to which the QA Plan was being implemented; and (3) quality of
             IV& V activities. The audit was performed in response to language in the OIG's
             Fiscal Year (FY) 2010 appropriation, which directed the OIG to provide routine
             analysis and reporting on SBA' s modernization of its loan management and
             accounting systems.

             The OIG has issued three reports on the LMAS project since it was initiated in
             2005 and, due to umesolved project risks, designated oversight of the LMAS
             project as a new management challenge in FY 2010. 1 Two of the most recent

             1   Management Challenge 9 - SBA Needs to Modernize its Loan Accounting System and Migrate it offthe Mainjinme.
                                                                                                             2


reports 2 found that the Agency had not established either an effective enterprise­
wide or project-level QA function to ensure that LMAS project deliverables meet
SBA requirements and quality standards. The most recent audit found that the
project-level QA process was not independent from project management staff and
that the project lacked a defined process for accepting deliverables.

To assess the adequacy ofLMAS QA Plans, we compared the LMAS QA Plan to
SEA's Systems Development Methodology (SDM) issued by the Office of the
Chief Information Officer and to the Federal Acquisition Regulation. We also
reviewed the Quality Assurance Surveillance Plans (QASP) for each project task
order to determine whether components of the QA plan had been incorporated.

To determine the extent to which the QA plan had been implemented, we
reviewed all activities of TestPros, the QAlIV&V contractor, that were
documented in project status reports and correspondence between TestPros and the
LMAS project management staff. We also interviewed selected personnel from
SBA's Office of the Chief Information Officer (OCIO), LMAS project
management staff, and contractor personnel to gain an understanding of the QA
process, staff roles and responsibilities for implementing the QA plan, and the
project's status. Finally, to determine the adequacy of IV&V activities, we
reviewed the solicitation and other documents related to SBA' s contract for IV& V
and compared the activities to work performed.

The OIG contracted with the Loch Harbour Group to assist the OIG in its audit of
the LMAS QA process. We performed the audit work between October 2009 and
April 2010 in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States.

The audit disclosed that the QA plan does not address all key areas prescribed by
the Agency's System Development Methodology (SDM), and that the QA
contractor has not performed all of the QA activities stipulated in its contract,
including the performance audits of the other LMAS contractors. Further, none of
the LMAS task orders issued to date have undergone IV&V testing. These lapses
in QA oversight of the project have made the Agency unduly reliant on the other
LMAS contractors to ensure the quality of their products and increased the risk
that the project will not perform as intended.

We recommended that SBA: revise the LMAS QA plan to incorporate all the
components required by the enterprise-wide QA plan; take steps to hold TestPros


2   OIG Report No. 08-13, Planning for the Loan Management and Accounting System Modernization and Development
    Effort, May 14,2008; OIG Report No. 09-17, Review ofAllegations Concerning How the Loan Management and
    Accounting System Modernization Project is Being Managed, July 30, 2009.
                                                                                      3


accountable for performing all the activities specified in its contract; and revise
TestPros' statement of work to include the IV&V responsibilities previously
deleted. Further, we recommended that SBA evaluate and make necessary
adjustments to the QA manager's workload to ensure that he can devote adequate
time to oversee complete implementation of the enterprise QA oversight function.
SBA management expressed concurrence with our recommendations.

BACKGROUND
The LMAS project is one in a series of attempts by SBA during the past several
years to upgrade existing financial software and application modules and to
migrate them off the mainframe environment. LMAS remained in the planning
phase until September 2008 when SBA awarded three blanket purchase
agreements, which included a: (1) $7.5 million award to TestPros to establish
QAlIV&V monitoring and oversight; (2) $5 million award to Data Networks
Corporation (DNC) for project management support; and (3) $250 million award
to Systems Research Applications (SRA) for systems integration services.

SBA requires a QA plan, which incorporates all Federal requirements for system
development efforts, for all of its major IT projects. The purpose of the QA plan
is to define the approach that will be used to monitor and evaluate the performance
of the project and the quality of the deliverables. A major component of the QA
process is the QASP. A QASP is developed for each task order and specifies all
work requiring surveillance and the methode s) of surveillance that will be used.
Another key component of the QA plan is IV& V testing to evaluate whether the
system being developed complies with the project's specifications and meets
performance standards.

SBA contracted with TestPros for both the development and performance of the
QA plan as well as the conduct of IV&V activities. As part of its IV&V
responsibilities, TestPros is responsible for reviewing the quality of deliverables
from both DNC and SRA. Originally, TestPros reported solely to the LMAS
Program Manager and the Contracting Officer's Technical Representative.
However, based on a prior IG report that disclosed the reporting arrangement did
not ensure that QAlIV&V was independent of project management, SBA assigned
a QA manager from the OCIO to provide independent project oversight and to
review TestPros' work activities. While the LMAS Program Manager is
responsible for ensuring that TestPros completes all activities identified in the
LMAS QA plan, the QA manager is responsible for approving the QA plan and
ultimately ensuring that the project meets the OCIO's quality standards.

In March 2010, SBA began revising its plans for the LMAS project and elevated
governance of the project. The LMAS Program Manager position was eliminated
                                                                                                                         4


and replaced with a LMAS Project Director that directly reports to SBA's Chief
Operating Officer. Also, at the request of the Office of Management and Budget,
the Agency is reviewing the project's roll-out strategy with a focus on providing a
defined return on investment and an incremental approach for building the system.
An effective QA process will be integral to SBA in meeting these goals.

RESULTS

The QA Plan for the LMAS Project Has Significant Weaknesses

The LMAS QA Plan developed by TestPros, and accepted by SBA on December
2009, does not address all of the key areas required by SBA's SDM. The SDM
requires that project QA plans identify the types of activities that will be
performed in key areas to ensure that all IT projects are aligned with SBA's
enterprise architecture 3 and follow a consistent development process.

Despite this requirement, the QA plan developed by TestPros does not identify
planned activities that would address SDM requirements for security planning,
configuration management, 4 user acceptance testing, risk analyses, and earned
value management reporting. For example, the QA plan does not:

       • 	 Identify the security requirements for LMAS and controls to be
           implemented based on the level(s) of security needed. Federal regulations
           and SBA guidance require that systems be categorized as to their
           importance to the overall mission of the agency and that security controls
           be implemented based on their security categorization. 5 However, the
           LMAS QA plan does not monitor whether an adequate level of security was
           established, or needed security controls were identified. Also, a system
           security plan was not developed for the project. To date, OCIO and LMAS
           project management have focused their oversight activities on the
           certification and accreditation process, rather than initiating security
           planning.


3   Enterprise architecture is a management practice to maximize the contribution of an agency's resources, IT
    investments, and system development activities to achieve its performance goals.

4   Configuration management is the means by which the content, change, or status of shared information within a project
    is managed and controlled.

5   NIST SP 800-64, Security Considerations in the System Development Lifecycle, requires that security categorization
    begin during the initiation phase of the system development life cycle, and that it identify the information that
    supports each government line of business, as defined by the enterprise architecture. It further requires that security
    controls be selected and documented in a system security plan during the acquisition/development phase ofthe system
    development life cycle. In addition, SBA's SDM requires that a system security plan be completed at the Define
    System phase of the system development life cycle.
                                                                                   5


    • 	 Address whether configuration audits will be performed to ensure that the
        system successfully fulfills its requirements and that technical
        documentation is complete, consistent, and accurate, as required by SBA's
        SDM. The SDM requires that these audits be performed and any
        deviations addressed prior to putting systems into production, performing
        periodic maintenance, and placing reliance on the technical documentation.

   • 	 Explain the steps that will be taken to ensure that changes made in the
       system hardware and software throughout the development effort will be
       tested, documented, and controlled.

   • 	 Contain steps to review the Program Management Office's compliance
       with the LMAS risk management plan to ensure that it is assessing and
       managing internal and external risks throughout the project's life cycle.

   • 	 Include steps to assess the completeness and accuracy of Earned Value
       Management reporting on the project. OMB Circular A-II, Preparation,
       Submission and Execution ofthe Budget, requires that agencies submit
       Earned Value Management reports for all major investments to ensure that
       project performance is being measured and that corrective actions are
       implemented to address any cost and schedule variances.

While a complete QA plan does not guarantee that a project will be successful, it
does minimize a project's exposure to risk, and thus the likelihood that it will fall
short of expectations. As a result of these gaps, management has no assurance that
LMAS project deliverables will meet security requirements and the Agency's
development standards.

The LMAS QA Plan Has Not Been Fully Implemented

The LMAS Program Manager did not ensure that TestPros performed all of the
QA activities stipulated in its contract. For example, TestPros did not conduct any
QA audits of the activities and work products of SRA and DNC to ensure that they
were being implemented as specified, and that the resulting work products
conformed to requisite standards, satisfied specified user requirements, and
fulfilled their intended use. Further, while TestPros reviewed LMAS deliverables
from SRA, it did not independently validate that they were created in accordance
with SRA's standard processes or Agency requirements stipulated in the LMAS
QA Plan. Rather, TestPros' reviews primarily addressed grammar and formatting
of the work products and not the substance or quality of what was provided.

According to representatives from TestPros, it was unable to fully implement the
QA plan because SRA, the systems integration contractor, would not grant
                                                                                                                             6


TestPros access to its development processes. TestPros reported to SBA that it
tried for months, but was unable to obtain the required documentation from SRA
and DNC needed to perform the audits. The Program Manager stated that the
delay was due, in part, to SRA replacing the project manager with an individual
who was unfamiliar with the contract provisions that allowed TestPros access.
However, SBA was unable to make the two contractors comply with TestPros'
requests until April 2010.

IV& V Activities Were Terminated

Finally, TestPros was originally required to conduct all IV&V of critical LMAS
development processes and deliverables. IV& V is the process of checking that a
system meets specifications and fulfills its intended purpose, and often involves
user acceptance testing. IV&V is especially critical for complex projects, such as
LMAS, which is expected to encompass 165 updated or new interfaces, 46 data
conversions, and 74 extensions of functionality. Due to these complexities, SBA
project management officials recognized the importance of IV&V and made it a
critical component of the Agency's testing strategy throughout the system's
development lifecycle. For example, plans for LMAS IV&V were outlined in the
project's Office of Management and Budget (OMB) Exhibit 3006 and in
solicitation and contract documents for the QA/IV&V contract. 7 IV&V was also
specified as a requirement in the QASPs for SRA's task orders.

However, as of April 2010, none of the task orders have undergone IV&V testing
of the results by TestPros. For example, hosting of the Joint Accounting and
Administrative Management System was migrated from IBM facilities to SAVVIS
without completing IV& V testing. While SBA will perform user acceptance
testing, it may not fully assess operational requirements. Without IV& V,
management has no independent assurance that complex interfaces and extensions
to commercial off-the-shelf software are performing in accordance with standards.

Further, in May 2009, SBA modified the contract with TestPros to eliminate
IV&V activities. However, we noted that no adjustments were made to the cost of
the contract, which was originally negotiated as a fix-priced contract. OCIO's
Chief Technology Officer, who served as OCIO's technical advisor to the LMAS
project, advised us that he was unaware that IV&V had been removed from the

6   The Exhibit 300 is a capital investment report to OMB that is designed to be used as a one-stop document for many IT
    management issues, such as the business case for investment, Clinger-Cohen Act implementation, E-Gov Act
    implementation, Government Paperwork Elimination Act implementation, an agency's modernization efforts, and the
    overall project (investment) management.

7   Since 2006, SBA has included IV& V in the LMAS project lifecycle and listed it in reports to OMB. In 2008, SBA
    contracted with a small business to perform this function. The request for proposal, contract, and technical proposal,
    all stated that the contractor would perform QAlIV& V.
                                                                                        7


project's QA activities. This occurred without the advisor's knowledge because at
the time of the modification, OCIO had not assigned an independent Quality
Manager to the LMAS project, and allowed the LMAS Program Manager to act in
that capacity.

By eliminating IV& V testing for the LMAS project, SBA is at risk of deploying
this mission-critical system with undetected errors and with limited assurance that
all requirements are fully satisfied. Further, had SBA originally solicited only for
QA services, more bidders may have submitted proposals at more competitive
prices, since QA is less intensive and requires less technical expertise than IV& V._

OCIO's Delay in Designating a QA Manager Contributed to Quality
Assurance Weaknesses

TestPros was allowed to proceed with an incomplete QA plan and without
fulfilling all of its QA responsibilities, because OCIO had not acted timely in
establishing a QA oversight function to ensure that the LMAS QA Plan was
properly developed and fully implemented. The OIG had recommended in May
2008 that a QA function be established that fully addresses the risk and scope of
the LMAS project. However, it was not until October 2009 that OCIO identified a
QA manager for the project.

Further, although the QA manager was added to the project, he was unable to
dedicate a sufficient amount of time to the project due to his other workload
demands. In addition to performing QA oversight ofLMAS, the manager is also
the Acting Enterprise Architect, which requires him to support the Agency's
governance structure and to promote the use of common technologies, standards
and services. He also told us that he has not been given resources that would help
him fulfill his oversight responsibilities to the LMAS project. As a result, the QA
Manager was unable to monitor execution of the QA plan and his involvement in
the project was limited.

The lack of a robust QA process has placed SBA in a position where it is unduly
reliant on DNC and SRA to ensure the quality of their products. While we are
encouraged that the governance structure and plans for the project itself are
undergoing significant changes that will reduce project risks, SBA will still need
to have an effective QA function to ensure that it is meeting its responsibilities to
provide independent QA and oversight of its LMAS investment.

RECOMMENDATIONS

We recommend that the LMAS Project Director:
                                                                                  8


   1. 	 Revise the LMAS QA plan to incorporate all the components required by
        the enterprise-wide QA plan.

   2. 	 Take steps to hold TestPros accountable for performing the activities 

        specified in its contract. 


   3. 	 Revise the TestPros Performance Work Statement to include the IV&V
        responsibilities previously deleted.

We recommend that the Chief Information Officer:

   4. 	 Evaluate and make necessary adjustments to the QA Manager's workload
        to ensure that he can devote adequate time to oversee complete
        implementation of the enterprise QA oversight function.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On August 6, 2010, we provided the LMAS Project Director and Acting Chief
Information Officer with the draft report for comment. On September 7, 2010, the
Associate Administrator for Management and Administration (formerly the LMAS
Project Director) submitted a formal response, which is contained in its entirety in
Appendix I. The response, which incorporated comments from the Acting CIO,
expressed concurrence with all of the recommendations presented in this report.

Management agreed that the LMAS QA plan should be revised to conform
completely to the requirements of SBA's enterprise-wide QA plan as stated in
recommendation 1, and commented that a revised QA plan has been drafted that
conforms to the April 2010 OCIO QA Plan template. In response to
recommendations 2 and 3, management agreed that TestPros' IV&Vactivities
should be robust and meaningful. Management stated that the TestPros contract
has been modified to reflect that the OCIO QA Manager is now responsible for
oversight of the TestPros activities. The LMAS Project Director is also working
with the OCIO QA Manager to strengthen LMAS IV&V activities. Management
stated that significant progress has been made in implementing the QA processes
of the Agency as demonstrated by the QAlIV&V audits and reviews that have
already been completed. Further, management stated it did not believe that
further revisions to the TestPros Performance Work Statement are necessary to
accomplish meaningful IV&V activities on behalf of LMAS, but to the extent that
any revisions are necessary, it would be fully supportive of them.

Management concurred with recommendation 4 and stated that the Chief
Information Officer has assigned a full-time IT QA manager, who is responsible
                                                                                      9


for the overall IT QA program operations, including establishing the relevant
policy, processes and deliverables to ensure implementation of the IT QA function
within SBA. Further, the QA manager has additional resources including contract
support staff specific to the LMAS QA function.

Finally, management stated that the CIO has established an IT QA program to
validate that information technology investments meet planned requirements and
to ensure that LMAS managers and other internal SBA managers utilize consistent
practices to manage the successful delivery of new or on-going IT initiatives
across Agency programs.

ACTIONS REQUIRED

Please provide your management decision for each recommendation on the
attached SBA forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your decision should identify the specific action( s) taken or
planned for each recommendation and the target date( s) for completion.

We appreciate the courtesies and cooperation of the OCIO, LMAS project staff,
and LMAS contractor personnel during this audit. If you have any questions
concerning this report, please call me at (202) 205JFOIAex2]or Jeffrey Brindle, the
Director, Information Technology and Financial Management Group at (202) 205­
[FOIAex.2]
  APPENDIX I. MANAGEMENT COMMENTS                                                               10




                           u.s. SMALL BUSINESS ADMINISTRATION
                                      WASHINGTON,   D.C. 20416




   DATE:         September 7,2010
      TO:        Debra S. Ritt, Assistant Inspector General for Auditing
                 Jeffrey R. Brindle, Director, IT and Financial Management Group, OIG
  FROM:          David B. Robbins, Associate Administrator for Management and Administration
SUBJECT:         Response to the Draft Report on the Adequacy of Quality Assurance Oversight
                 of the Loan Management And Accounting System Project, Project No. 10002
      CC:        Paul T. Christy, Acting ChiefInformation Officer



  Thank you for the opportunity to comment on the draft report. My comments and those of the
  CIO follow the recitation of each recommendation, below.

  Recommendation 1: Revise the !MAS QA plan to incorporate all the components required by
  the enterprise-wide QA plan.

  Comment: I agree that the LMAS QA plan should be revised to conform completely to the
  requirements of the SBA enterprise-wide QA plan.

  The SBA ChiefInformation Officer (CIO)

  The IT QA function is documented and in the process of getting formal approval for the IT QA
  Standard Operating Procedures (SOP). This SOP, based on the IT QA Concept of Operations,
  will serve as required practice for LMAS and all SBA IT investments and projects.

  The SBA CIO has assigned a full-time IT QA manager who is responsible for the overall IT QA
  program operations, including relevant policy, processes and deliverables to ensure
  implementation of the IT QA function within SBA. Additional resources include contracted
  support specific to the LMAS QA function.

  The overarching goal of the SBA's IT QA program is for the systematic monitoring and
  evaluation of the various aspects of a project, service, or facility to ensure that standards of
  quality are being met. Quality is determined by the intended users and stakeholders. The IT QA
  program has been added to the Audit Visibility Tracking System. This system is being deployed
  throughout SBA to ensure consistent tracking and monitoring of audit-related activities.
                                                                                                11


LMAS and any succcssor projccts will implemcnt QA proccsscs that conform to SBA's
Enterprise Quality Assurance Plan. LMAS already has drafted a revised QA plan that conforms
to the April 2010 OCIO QA Plan template.

Recommendation 2: Take steps to hold TestPros accountable for performing the activities
specified in its contract.

Comment: I agree that TestPros should be held accountable for performing the activities in its
contract.

The TestPros contract has been modified such that TestPros activities are the responsibility of the
OCIO QA Manager. That said, I am committed to seeing that the activities of TestPros are
appropriately focused and managed and intend to cooperate fully with the OCIO QA Manager
towards that end. Significant progress has been made in implementing the quality assurance
processes of the agency as demonstrated by the QAJIV &V audits and reviews that have already
been completed, as well as the initial follow-up and corrective actions that have begun as a result
of those audits and reviews. Further, LMAS QA activities will conform to the IT QA Standard
Operating Procedures in the process of being formally approved for SBA-wide use when that
approval is given and the procedures become effective.

Recommendation 3: Revise the TestPros Performance Work Statement to include the IV&V
responsibilities previously deleted.

Comment: I agree that TestPros activities should include robust and meaningful IV&V
responsibilities. We have been working with the OCIO QA Manager to strengthen the LMAS
IV&Vactivities. I am not aware that further revisions to the TestPros Performance Work
Statement are necessary to accomplish meaningful IV&V activities on behalf of LMAS, although
to the extent that any revisions are necessary, we will be fully supportive of them. LMAS will
conform to the IT QA Standard Operating Procedures in the process of being formally approved
for SBA-wide use when that approval is given and the procedures become effective.

Recommendation 4: We recommend that the ChiefInformation Officer evaluate and make
necessary adjustments to the QA Manager's workload to ensure that he can devote adequate time
to oversee complete implementation ofthe enterprise QA oversight function.

Comment: The SBA ChiefInformation Officer (CIO) concurs with this recommendation and
has assigned a full-time IT QA manager who is responsible for the overall IT QA program
operations, including relevant policy, processes and deliverables to ensure implementation of the
IT QA function within SBA. Additional resources to the QA manager include contracted support
specific to the LMAS QA function.

The SBA CIO has also established the Information Technology Quality Assurance (IT QA)
program to serve as a management control to validate that information technology investments
meet planned requirements and to ensure that LMAS managers, and other internal SBA managers
utilize consistent practices to manage the successful delivery of new or on-going Information
Technology (IT) initiatives across the agency programs.

The IT QA function is documented and in the process of getting formal approval for the IT QA
Standard Operating Procedures (SOP). This SOP, based on the IT QA Concept of Operations,
will serve as required practice for LMAS and all SBA IT investments and projects.
                                                                                            12


Thc ovcrarching goal of thc SBA's IT QA program is for thc systcmatic monitoring and
evaluation of the various aspects of a project, service, or facility to ensure that standards of
quality are being met. Quality is determined by the intended users and stakeholders. The IT QA
program has been added to the Audit Visibility Tracking System. This system is being deployed
throughout SBA to ensure consistent tracking and monitoring of audit-related activities.


SIGNED - DAVID B. ROBBINS

David B. Robbins
